OFFICE OF THE STATE’S ATTORNEY
COOK COUNTY, ILLINOIS
KIMBERLY M. FOXX

50 W. Washington, Suite 2760
CHICAGO, ILLINOIS 60602
312-603-1427

STATE’S ATTORNEY

August 25, 2021
Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Clint A. Krislov, et al., v. Cook County Officers’ Electoral Board, et al., 21108

Dear Mr. Harris:
I, Miguel E. Larios, am counsel of record for the respondents in the above-captioned case and
am writing to request a 30-day extension of time in which to file a response to the petition for writ of
certiorari. The petition was placed on the court’s docket on July 22, 2021, and a response to the petition
is currently due August 26, 2021. Pursuant to Supreme Court Rule 30.4, respondents respectfully
request a 30-day extension of time, to and including September 23, 2021, in which to file a response
to the petition. The additional time is warranted because of the numerous obligations myself and my
co-counsel have had over the past 30 days in both state and Federal Court, including additional class
certification briefing in the matter of Simpson, et al v. Cook County Sheriff’s Office, et al., 18 C 553.
Additionally, the lead attorney at both the trial court and before the Seventh Circuit, Assistant State’s
Attorney Lyle Henretty, has only recently been approved for admission to this Court, and will not be
so admitted until September 10, 2021. My office has conferred with counsel of record for the petitioner,
who does not oppose a 30-day extension of time.
Thank you for your consideration of this request.
Sincerely,
KIMBERY M. FOXX
State’s Attorney of Cook County

By:

_____
Miguel E. Larios
Assistant State’s Attorney

